  DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                Office of Inspector General


                                                                         Washington, D.C.	 20201




                                    MAR 17 2009

TO:	          Charlene Frizzera
              Acting Administrator
              Centers for M z e d i c a id Services


FROM:
                    £-~
               oseph E. Vengrin                       .
              Deputy Inspector General for Audit Services


SUBJECT:	     Review of Medicaid Indirect Costs Submitted by the New York State Department
              of Health on Behalf of the Office of Mental Retardation and Developmental
              Disabilities (A-02-06-01028)                              "


Attached is an advance copy of our final report on our review of Federal Medicaid
reimbursement of indirect administrative costs submitted by the New York State Department of
Health (DOH) on behalf of the Office of Mental Retardation and Developmental Disabilities,
(OMRDD). We will issue this report to New York State DOH within 5 business days.

In New York State, OMRDD provides services to individuals-'both Medicaid and non-Medicaid
beneficiaries-with mental retardation and developmental disabilities under a cooperative
agreement with DOH, which administers the State's Medicaid program. On a quarterly basis,
OMRDD submits to DOH a report of both direct and indirect costs incurred in supporting
administration of the State Medicaid plan. DOH reports the total ofOMRDD's direct and
indirect Medicaid administration costs for Federal Medicaid reimbursement on the Form
CMS-64, "Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program."

Our objective was to determine whether DOH properly claimed Federal Medicaid
reimbursement of indirect administrative costs submitted by OMRDD.

OMRDD did not maintain documentation to support its indirect cost rate calculations. In
addition, DOH did not review OMRDD's administrative costs before claiming them on the CMS
Form-64. As a result, $8,097,591 ($4,048,795 Federal share) of the $9,683,556 ($4,841,778
Federal share) in indirect administrative costs that DOH claimed from January 1,2003, through
June 30, 2006, was unallowable.

We recommend that DOH:

   •   refund $4,048,795 to the Federal Government and
Page 2 – Charlene Frizzera


   •   verify that Medicaid indirect costs billed by OMRDD are adequately supported.

In its comments on our draft report, DOH concurred with our finding and recommendations.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through e-mail at James.Edert@oig.hhs.gov. Please refer to report number A-02-06-01028.


Attachment
                                                                                       , OffIce Of Inspector General
        ~i~RVIC'.f'
                                                                                        Office Of Audit Services
 / ...t#f-
       . . .'"            DEPARTMENT OF HEALTH & HUMAN Sl):RVICES

 t -::i~
. 1("
    ~4.£""1f3a
                      _
                                                                                        Region II
                                                                                        Jacob K. Javlts Federal BuildIng
                                                 MAR .'19 2009                          28 Federal Plaza

         Report Number:A-02-06-01028                                                    New York. NY 10278 .


         Richard F. Daines, M.D.
         Commissioner
         New York State Department of Health
         14th Floor, Corning Tower
         Empire State Plaza
         Albany, New York 12237

         Dear Dr. Daines:

        Enclosed is the U.S. Department of Health and Human Services, Office ofInspector General
        (OIG), final report entitled "Review of Medicaid Indirect Costs Submitted by the New York
        State Department of Health on Behalf of the Office of Mental Retardation and Developmental
        Disabilities." We will forward a copy of this report to the HHS action official noted on the
        following page for review and any action deemed necessary.

        The HHS action official will make final determination as to actions taken on all matters reported.
        We request that you respond to this official within 30 days from the date of this letter. Your
        response should present any comments or additional information that you believe may have a
        bearing on the final determination.

        Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
        available to the public to the extent that information in the report is not subject to exemptions in
        the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

        If you have any questions or comments about this report, please do not hesitate to call me, or
        contact James Cox, Audit Manager, at (518)437-9390, extension 222, or through e-mail at
        James.Cox@oig.hhs.gov. Please refer to report number A-02-06-0l028 in allcorrespondence.

                                                       Sincerely,             -r\




                                                    C~de~M:
                                                      Regional Inspector General
                                                       for Audit Services


        Enclosure
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid & Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



REVIEW OF MEDICAID INDIRECT
COSTS SUBMITTED BY THE NEW
 YORK STATE DEPARTMENT OF
  HEALTH ON BEHALF OF THE
     OFFICE OF MENTAL
     RETARDATION AND
DEVELOPMENTAL DISABILITIES




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-02-06-01028
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New York State, the Office of Mental Retardation and Developmental Disabilities (OMRDD)
provides services to individuals—both Medicaid and non-Medicaid beneficiaries—with mental
retardation and developmental disabilities under a cooperative agreement with the Department of
Health (DOH), which administers the State’s Medicaid program. On a quarterly basis, OMRDD
submits to DOH a report of both direct and indirect costs incurred in supporting administration
of the State Medicaid plan. Direct Medicaid administration costs include such activities as
budgeting, rate development, and fiscal oversight. OMRDD applies an indirect cost rate to
salaries it claims as direct costs of Medicaid administration. DOH reports the total of OMRDD’s
direct and indirect Medicaid administration costs for Federal Medicaid reimbursement on the
Form CMS-64, “Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program.”

Pursuant to the Office of Management and Budget (OMB) Circular A-87, “Cost Principles for
State, Local, and Indian Tribal Governments” (2 CFR part 225), Att. A §C.1, allowable costs
must be necessary and reasonable for proper and efficient administration of the program, be
allocable to Federal awards, and be adequately documented. Pursuant to OMB Circular A-87,
Att. E § D.1.a, State agencies claiming indirect costs under Federal awards must prepare and
retain an indirect cost rate proposal and related documentation to support those costs. Pursuant
to the cooperative agreement between the Department of Social Services (DOH’s predecessor)
and OMRDD, OMRDD agreed to maintain all records necessary for the proper and efficient
operation of the Medicaid program and to comply with requirements for any indirect costs
claimed for Federal reimbursement.

OBJECTIVE

Our objective was to determine whether DOH properly claimed Federal Medicaid
reimbursement of indirect administrative costs submitted by OMRDD for the period January 1,
2003, through June 30, 2006.

SUMMARY OF FINDING

DOH improperly claimed Federal Medicaid reimbursement of indirect administrative costs
submitted by OMRDD. Contrary to Federal regulations and its cooperative agreement with




                                             i
DOH, OMRDD did not maintain documentation to support its indirect cost rate calculations. In
addition, DOH did not review OMRDD’s administrative costs before claiming them on the Form
CMS-64. As a result, $8,097,591 ($4,048,795 Federal share) of the $9,683,556 ($4,841,778
Federal share) in indirect administrative costs that DOH claimed from January 1, 2003, through
June 30, 2006, was unallowable. The remaining $1,585,965 ($792,983 Federal share) in indirect
administrative costs represents the amount that could have been claimed based on the State’s
approved indirect cost rate for central service units.

RECOMMENDATIONS

We recommend that DOH:

   •   refund $4,048,795 to the Federal Government and

   •   verify that Medicaid indirect costs billed by OMRDD are adequately supported.

DEPARTMENT OF HEALTH COMMENTS

In its comments on our draft report, DOH concurred with our finding and recommendations.
DOH’s comments are included as the Appendix.




                                              ii
                                                TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Office of Mental Retardation and Developmental Disabilities......................1
              Federal Requirements ....................................................................................1
              State Requirements ........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope..............................................................................................................3
               Methodology ..................................................................................................3

FINDING AND RECOMMENDATIONS.........................................................................3

          LACK OF DOCUMENTATION ..............................................................................4

          CALCULATION OF THE UNALLOWABLE AMOUNT ......................................4

          RECOMMENDATIONS...........................................................................................5

          DEPARTMENT OF HEALTH COMMENTS……………………………………..5

APPENDIX

          DEPARTMENT OF HEALTH COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Office of Mental Retardation and Developmental Disabilities

The Office of Mental Retardation and Developmental Disabilities (OMRDD) provides services
to individuals—both Medicaid and non-Medicaid beneficiaries—with mental retardation and
developmental disabilities under a cooperative agreement with the Department of Health (DOH),
which administers the State’s Medicaid program. On a quarterly basis, OMRDD submits to
DOH a report of both direct and indirect costs incurred in supporting administration of the State
Medicaid plan. Direct Medicaid administration costs include such activities as budgeting, rate
development, and fiscal oversight. 1 OMRDD applies an indirect cost rate to salaries it claims as
direct costs of Medicaid administration.

On a quarterly basis, DOH submits to CMS a Form CMS-64, “Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program,” to summarize, by category of service,
Medicaid expenditures for Federal reimbursement incurred by all State agencies, including
OMRDD. For the period January 1, 2003, through June 30, 2006, DOH’s claims for Federal
Medicaid reimbursement of administrative costs included $9,683,556 ($4,841,778 Federal share)
for indirect administrative costs reported by OMRDD.

Federal Requirements

Pursuant to Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State,
Local, and Indian Tribal Governments” (2 CFR part 225), Att. E § A.2, indirect costs include
“the indirect costs originating in each department or agency of the governmental unit carrying
out Federal awards and the costs of central governmental services distributed through the central
service cost allocation plan . . . and not otherwise treated as direct costs.” These costs are
normally charged to Federal awards through an indirect cost rate.

Pursuant to OMB Circular A-87, Att. A §C.1, allowable costs must be necessary and reasonable
for proper and efficient administration of the program, be allocable to Federal awards, and be
adequately documented. Medicaid regulations at 42 CFR § 433.34 provide that administrative
costs are eligible for Federal reimbursement only to the extent that they are allocated to Medicaid

1
 OMRDD’s quarterly reports include direct costs of Medicaid administration activities at OMRDD’s central office
and regional office, as well as direct costs allocated from the New York State Commission on Quality of Care and
Advocacy for Persons With Disabilities, which provides independent oversight of State mental hygiene programs.


                                                    1
pursuant to an approved cost allocation plan. Pursuant to OMB Circular A-87, Att. E § D.1.a,
State agencies claiming indirect costs must prepare an indirect cost rate proposal and related
documentation to support those costs, including certification that the indirect costs will be
allowable in accordance with the OMB circular. 2

Pursuant to section 2500(A)(1) of the CMS “State Medicaid Manual,” amounts reported on the
Form CMS-64 must be actual expenditures for which all supporting documentation, in readily
reviewable form, has been compiled and is available immediately at the time the claim is filed.
In addition, section 2500.5 of the “State Medicaid Manual” states that, pursuant to §1903(a)(7)
of the Act, expenditures may be claimed only for the proper and efficient administration of the
State Medicaid plan and must be in accordance with an approved cost allocation plan.

State Requirements

Pursuant to a cooperative agreement signed in 1993 by the Department of Social Services 3 and
OMRDD, OMRDD agreed to:

           •    maintain a cost allocation plan that complies with applicable rules and regulations for
                any indirect costs claimed that are subject to Federal reimbursement;

           •    bill DOH only at rates, fees, or schedules approved by the New York State Division
                of the Budget; 4 and

           •    maintain all records necessary for the proper and efficient operation of the agreement
                and the State Medicaid program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH properly claimed Federal Medicaid
reimbursement of indirect administrative costs submitted by OMRDD for the period January 1,
2003, through June 30, 2006.



2
 The certification requires that all costs included in the proposal be properly allocable to Federal awards on the basis
of a beneficial or causal relationship between the expenses incurred and the agreements to which they are allocated
in accordance with applicable requirements.
3
    In 1997, the Department of Social Services was dissolved, and its Medicaid functions were distributed within DOH.
4
 On an annual basis, the State Division of the Budget establishes an indirect cost rate to allocate statewide central
services costs to each receiving State agency, including OMRDD, under a federally approved statewide cost
allocation plan. State agencies also incur their own indirect costs, such as personnel administration and other
supporting functions. The Division of the Budget suggests that agencies allocate, claim, and recover their own
indirect costs, in addition to recovering central services costs imposed by the State (Division of the Budget, Budget
Bulletin B-1141 (1993)). The Division of the Budget does not review or track rates developed by individual
agencies to recover their own indirect costs.


                                                           2
Scope

Our audit period covered January 1, 2003, through June 30, 2006, during which time DOH
claimed Medicaid reimbursement of $9,683,556 ($4,841,778 Federal share) for indirect
administrative costs submitted by OMRDD. We did not review the overall internal control
structure of DOH, OMRDD, or the Medicaid program. Rather, we reviewed only the internal
controls that pertained directly to our objective.

We performed fieldwork at DOH’s and OMRDD’s offices in Albany, New York.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws and regulations and the State Medicaid plan;

   •    held discussions with officials of CMS, DOH, OMRDD, and the State Division of the
        Budget to identify State policies, procedures, and guidance;

   •    reconciled indirect costs submitted by OMRDD with the Form CMS-64 submitted by
        DOH for the fourth quarter of State fiscal year 2004 (January through March 2005); and

   •    sought documentation from DOH and OMRDD related to OMRDD’s indirect
        administrative cost rate proposal and related calculations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

DOH improperly claimed Federal Medicaid reimbursement of indirect administrative costs
submitted by OMRDD. Contrary to Federal regulations and its cooperative agreement with
DOH, OMRDD did not maintain a cost allocation plan for indirect costs or documentation to
support its indirect cost rate calculations. In addition, DOH did not review OMRDD’s
administrative costs before claiming them on the Form CMS-64. As a result, $8,097,591
($4,048,795 Federal share) of the $9,683,556 ($4,841,778 Federal share) in indirect
administrative costs that DOH claimed from January 1, 2003, through June 30, 2006, was
unallowable. The remaining $1,585,965 ($792,983 Federal share) in indirect administrative
costs represents the amount that could have been claimed based on the State’s approved indirect
cost rate for central service units.




                                               3
LACK OF DOCUMENTATION

Pursuant to OMB Circular A-87, Att. A §C.1, allowable costs must be allocable to Medicaid and
must be adequately documented. Medicaid regulations at 42 CFR § 433.34 provide that
administrative costs are eligible for Federal reimbursement only to the extent that they are
allocated to Medicaid pursuant to an approved cost allocation plan. Pursuant to a 1993
cooperative agreement with DOH, OMRDD agreed to maintain a cost allocation plan and the
records and reports necessary for proper and efficient administration of the State Medicaid
program. Pursuant to Att. E § D.1.a, State agencies claiming indirect costs must prepare an
indirect cost rate proposal and maintain supporting documentation.

OMRDD used an indirect cost rate of 10.43 percent from January 1, 2003, through March 31,
2004, and a rate of 10.42 percent from April 1, 2004, through September 30, 2005, to calculate
its indirect Medicaid administrative costs. 5 OMRDD submitted these costs to DOH, which
claimed Federal Medicaid reimbursement for the costs on the Form CMS-64. However, contrary
to Federal regulations and its cooperative agreement with DOH, OMRDD did not maintain
documentation to support its indirect cost rate calculations. In addition, OMRDD officials were
unable to explain the calculations. DOH did not review OMRDD’s indirect administrative costs
before submitting them on the Form CMS-64.

CALCULATION OF THE UNALLOWABLE AMOUNT

During our audit period, OMRDD’s statewide indirect cost rate for central service units, as
calculated by the Division of the Budget, ranged from 0.82 percent to 1.51 percent. 6 Because the
State allocated central services costs based on a federally approved methodology, the amount
allocated through the statewide indirect cost rate could be allowable for Medicaid
reimbursement. However, OMRDD could not provide support for any other agency-specific
Medicaid-related indirect costs. To determine the unallowable amount, we calculated the
difference between the indirect cost rate that OMRDD used and the State’s approved indirect
cost rate for central service units. We then multiplied the difference in those rates by OMRDD’s
indirect cost base.

Based on our calculations, $8,097,591 ($4,048,795 Federal share) of the $9,683,556 ($4,841,778
Federal share) in indirect administrative costs that DOH claimed for Medicaid reimbursement
during the audit period was unsupported and unallowable. The remaining $1,585,965 ($792,983
Federal share) in indirect administrative costs represents the amount that could have been
claimed based on the State’s approved indirect cost rate for central service units.




5
 OMRDD did not report indirect Medicaid administrative costs to DOH from October 1, 2005, through June 30,
2006. OMRDD officials stated that they did not report these costs after they learned that they had been using an
incorrect indirect cost rate.
6
The U.S. Department of Health and Human Services, Division of Cost Allocation, reviewed and approved
New York’s methodology for calculating its statewide indirect cost rate for each agency.


                                                         4
RECOMMENDATIONS

We recommend that DOH:

   •   refund $4,048,795 to the Federal Government and

   •   verify that Medicaid indirect costs billed by OMRDD are adequately supported.


DEPARTMENT OF HEALTH COMMENTS

In its comments on our draft report, DOH concurred with our finding and recommendations.
DOH’s comments are included as the Appendix.




                                              5
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
